                                        SOCIAL SECURITY

MEMORANDUM

Date:      May 2, 2008                                               Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Performance Indicator Audit: Earnings Information (A-15-07-17126)


           We contracted with PricewaterhouseCoopers, LLP (PwC) to evaluate 13 of the Social
           Security Administration’s (SSA) performance indicators established to comply with the
           Government Performance and Results Act. Attached is the final report presenting the
           results of two of the performance indicators PwC reviewed. For the performance
           indicators included in this audit, PwC’s objectives were to:
           •   Assess the effectiveness of internal controls and test critical controls over data
               generation, calculation, and reporting processes for the specific performance
               indicator.
           •   Assess the overall reliability of the performance indicator’s computer processed
               data. Data are reliable when they are complete, accurate, consistent and not
               subject to inappropriate alteration.
           •   Test the accuracy of results presented and disclosed in SSA’s Fiscal Year 2006 and
               2007 Performance and Accountability Reports.
           •   Assess if the performance indicator provides a meaningful measurement of the
               program it measures and the achievement of its stated objective.

           This report contains the results of the audit for the following indicators.

           •   Issue annual SSA-initiated Social Security Statements to eligible individuals age
               25 and older.
           •   Remove 3 percent of the earnings items that remain in the Earnings Suspense File
               for a new tax year and post the earnings to the correct earnings records.
Page 2 – The Commissioner


Please provide within 60 days a corrective action plan that addresses each
recommendation. If you wish to discuss the final report, please call me or have your
staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
(410) 965-9700.




                                                  Patrick P. O’Carroll, Jr.

Attachment
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


  PERFORMANCE INDICATOR AUDIT:
      EARNINGS INFORMATION

     May 2008    A-15-07-17126



AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
MEMORANDUM


Date:      April 24, 2008

To:        Inspector General

From:      PricewaterhouseCoopers, LLP

Subject:   Performance Indicator Audit: Earnings Information (A-15-07-17126)


OBJECTIVE
The Government Performance and Results Act (GPRA) 1 of 1993 requires that the
Social Security Administration (SSA) develop performance indicators that assess the
relevant service levels and outcomes of each program activity. 2 GPRA also calls for a
description of the means employed to verify and validate the measured values used to
report on program performance. 3

Our audit was conducted in accordance with generally accepted government auditing
standards for performance audits. For the performance indicators included in this audit,
our objectives were to:

1. Assess the effectiveness of internal controls and test critical controls over the data
   generation, calculation, and reporting processes for the specific performance
   indicator.

2. Assess the overall reliability of the performance indicator’s computer processed
   data. Data are reliable when they are complete, accurate, consistent and are not
   subject to inappropriate alteration. 4

3. Test the accuracy of results presented and disclosed in the Fiscal Year (FY) 2006
   and 2007 Performance and Accountability Reports (PAR).

4. Assess if the performance indicator provides a meaningful measurement of the
   program it measures and the achievement of its stated objective.


1
 Public Law Number 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 United States
Code (U.S.C.), 31 U.S.C. and 39 U.S.C.).
2
    31 U.S.C. § 1115(a)(4).
3
    31 U.S.C. § 1115(a)(6).
4
 Government Accountability Office (GAO), GAO-03-273G, Assessing Reliability of Computer Processed
Data, October 2002, p. 3.


Performance Indicator Audit: Earnings Information (A-15-07-17126)                                    1
BACKGROUND
We audited the following performance indicators as stated in the SSA FY 2006 or 2007
PAR: 5

    Performance Indicator                             Goal                    Reported Results
    Issue annual SSA-initiated Social                 FY 2007                 FY 2007 Actual
    Security Statements [Statement] to                100%                    100%
    eligible individuals age 25 and older. 6
    Remove 3 percent of the earnings items            FY 2006                 FY 2006 Actual
    that remain in the Earnings Suspense File         3%                      1%
    (ESF) for a new tax year and post the
    earnings to the correct earnings records. 7

SSA administers the Old-Age and Survivors Insurance (OASI), Disability Insurance (DI),
and Supplemental Security Income (SSI) programs. The OASI program, authorized by
Title II of the Social Security Act (Act), provides income for eligible workers and eligible
members of their families and survivors. 8 The DI program, also authorized by Title II of
the Act, provides income for eligible workers with qualifying disabilities and eligible
members of their families before those workers reach retirement age. 9 The SSI
program, authorized by Title XVI of the Act, was designed as a needs-based program to
provide or supplement the income of aged, blind, and/or disabled individuals with limited
income and resources. 10

Widely considered the Nation's most successful domestic Federal program, Social
Security provides a basic level of protection to all covered workers based on their past
earnings. 11 Because of the importance of the earnings records, SSA management
continuously strives to improve the integrity of earnings information. The two indicators
reviewed and discussed in this report measure management's ongoing efforts to ensure
the accuracy of earnings record information retained by SSA.

For several years, SSA has been issuing annual Statements to eligible individuals.
These Statements are provided to improve communications with the public and improve
5
 The period of review for indictor, "Remove 3 percent of the earning items that remain in the Earning
Suspense File (ESF) for a new tax year and post the earning to the correct earning records," was
FY 2006. The period of review for indicator, "Issue annual SSA-initiated Social Security Statements to
eligible individuals age 25 and older," was FY 2007.
6
    SSA PAR, FY 2007, p. 86.
7
    SSA PAR, FY 2006, p. 100.
8
    The Social Security Act §§ 201-234, 42 U.S.C. §§ 401-434.
9
    Id.
10
     The Social Security Act §§ 1601-1637, 42 U.S.C. §§ 1381-1383f.
11
     SSA PAR, FY 2006, p. 11.

Performance Indicator Audit: Earnings Information (A-15-07-17126)                                        2
the accuracy of earnings information retained by SSA. SSA provides the Statements in
two ways.

1. "To all eligible individuals (Social Security Number [SSN] holders age 25 and older
   who are not yet in benefit status and for whom SSA can determine a current mailing
   address)," 12 and
2. At any time to workers of any age who request them.

The Statement is a record of the earnings on which individuals have paid Social
Security taxes during working years and a summary of the estimated benefits the
individuals and their families may receive as a result of those earnings. SSA intends for
the Statements to be used in several ways, including identification of earnings mistakes
by the individuals receiving the Statements.

SSA receives Wage and Tax Statements (W-2) from employers and self-employment
earnings from the Internal Revenue Service (IRS). The annual earnings posting cycle
for receiving and validating these data, including identifying and posting corrections, is
approximately 2 years. SSA receives approximately 250 million earnings records
annually and attempts to match these earnings records against the master record of all
issued SSNs. Without a match, SSA is unable to post the reported earnings to the
appropriate record, and these earnings are placed in the ESF.

Records are posted to the ESF for a number of reasons, including:

•      Earnings records fail the name and SSN validation test.
•      Earnings records consist of invalid SSNs.
•      SSA records indicate that the individual is under age 7. These records are assigned
       a special indicator of Young Children's Earnings (YCER).
•      SSA records indicate the individual is deceased. These records are assigned a
       special indicator of Earnings After Death (EAD).
•      An individual informs SSA that posted earnings are erroneous.

SSA management told us that approximately 10 percent of the received earnings
records do not initially match SSA data. SSA has developed several computerized
matching processes to correct these suspended records and is typically able to match
64 percent (16 million) of the initially suspended records. As a result, approximately
9 million unmatched or suspended records are added to the ESF each year. The ESF
contains over 250 million suspended records.

RESULTS OF REVIEW
We did not identify any significant findings related to the internal controls, data reliability,
meaningfulness, accuracy of presentation, or disclosure of the information for the
indicator "Issue annual SSA-initiated Social Security Statements to eligible individuals
age 25 and older."

12
     Id. p. 87.

Performance Indicator Audit: Earnings Information (A-15-07-17126)                             3
However, our assessment revealed areas for improvement related to internal controls,
data reliability, and the accuracy and completeness of the results presented and
disclosed in the PAR for the indicator "Remove 3 percent of the earnings items that
remain in the Earnings Suspense File (ESF) for a new tax year and post the earnings to
the correct earnings records." We also noted that previously reported internal control
weaknesses related to this indicator had not been remediated by the Agency.

Issue annual SSA-initiated Social Security Statements to eligible individuals age
25 and older

Indicator Background

In line with improving the public's knowledge of Social Security programs is the
issuance of the Statement. The Statement informs workers of their posted earnings for
each year, provides Old-Age, Survivors and Disability Insurance (OASDI) benefits
estimates, and provides valuable information about Social Security programs and
services. The Statement allows workers to ensure the accuracy of SSA's information
regarding their earnings and better plan for their financial future. 13

The Agency is required to be in compliance with section 1143 of the Act, 14 which
mandates the issuance of Statements to individuals age 25 and older who are not yet in
benefit status and for whom SSA can determine a current mailing address. This allows
SSA to educate workers and help them begin planning for retirement earlier by
providing them with estimated future benefit payments. The Agency established this
performance indicator to highlight the importance of providing this service.

SSA produces Statements using weekly and daily operations. The weekly operation is
as follows.

•      A file is created based on a query of the Numident for individuals who are 25 or older
       and are not deceased.
•      This file is cross-referenced against the Personal Earnings and Benefit Estimate
       Statement (PEBES) data file for individuals who have received statements within
       1 year. If a match is found, the individual will not receive a second statement.
•      The file is next compared against the Master Beneficiary Record (MBR) and Claims
       Control file to determine whether the individual is receiving benefits or has a claim
       pending. If this condition occurs, the individual will not receive a statement.
•      Finally, the individuals' addresses are obtained from the Internal Revenue Service or
       a Territory File. 15




13
     Id, p. 86.
14
     42 U.S.C. § 1320b-13.
15
     SSA obtains addresses for individuals living in U.S. Territories from taxpayer files in those locations.

Performance Indicator Audit: Earnings Information (A-15-07-17126)                                               4
After successful completion of the weekly operation, the Statement information is run
through a daily operation that includes the following.

•     The file is checked for multiple SSNs and current claim benefits.
•     The individuals' earnings information and insured status is obtained from the Master
      Earnings File (MEF). SSA works to resolve any errors noted with the earnings
      records.
•     The individuals' benefit estimates are calculated.
•     The individuals' Statements are transmitted for printing. If an exception in the
      Statement occurs, it is sent to the Target Notice Architecture for resolution.
•     An SSA contractor prints and mails the Statements.

The purpose of this indicator is to "…ensure that all eligible individuals are issued an
annual Social Security Statement as required by law." 16 However, it should be noted
that SSA is not able to confirm receipt of these Statements by the eligible individuals,
only that the Statements were sent. An OIG review found that Statements were being
returned to SSA as undeliverable. 17 OIG also suggested that SSA should consider
allowing access to the Statement on-line for those individuals who would like the
opportunity to obtain and view a Statement on-line.

The calculation is performed by dividing the total number of Statements that are initiated
by SSA (SSA-Initiated Personal Earnings and Benefit Estimate Statement [SIPEBES])
issued during the FY by the total number of SIPEBES required to be sent by law during
the FY.

Performance Indicator Calculation

                                                      Total number of SIPEBES issued during
 Percentage of SSA-Initiated Social                   the fiscal year
 Security Statements to Eligible                =     Total number of SIPEBES required to be
 Individuals Age 25 and Older                         sent by law during the fiscal year
 Issued


Findings

We did not identify any significant findings related to the internal controls, data reliability,
accuracy of presentation, meaningfulness, or disclosure of the information related to this
indicator contained in the FY 2007 PAR.




16
     SSA PAR FY 2007, p. 86.
17
  The Social Security Administration’s Ability to Reach Individuals Using the Social Security Statement
(A-15-07-17095).

Performance Indicator Audit: Earnings Information (A-15-07-17126)                                         5
Remove 3 percent of the earnings items that remain in the Earnings Suspense
File (ESF) for a new tax year and post the earnings to the correct earnings
records

Indicator Background

This indicator supports the Agency's objective of "Ensure the accuracy of earnings
records so that eligible individuals can receive the proper benefits due them." 18
Earnings are the primary basis for determining the amount of benefits payable to OASDI
beneficiaries. When an earnings report (W-2 or a report of self-employment income)
cannot immediately be matched with an individual because of inconsistent identifying
data (name or SSN), the reported earnings are placed in the ESF until the Agency
succeeds in properly associating the earnings to the right individual.

SSA's Offices of Quality Performance (OQP) and Systems continue to develop and
implement automated matching software to analyze the approximately 9 million records
added annually to the ESF. Using various algorithms, the software attempts to match
information in the ESF with SSA's master record information. The matching software is
typically run against the ESF at the end of each tax reporting period. The result for this
indicator is determined by comparing the number of items added to the ESF for a tax
year to the number of items later removed by the matching software, which is recorded
in the Reinstates File. SSA had developed and implemented matching software with
the goal of reducing the ESF by 3 percent in the current year; however, in the FY 2006
performance period, the number of items removed from the ESF did not result in the
anticipated success rate.

At the end of the fiscal year, OQP obtains a copy of the ESF and Reinstates Files from
the Office of Systems. OQP personnel count the number of items in the ESF for the tax
year. OQP personnel then count the number of Origin of Validation Reinstatement
(OVR) codes of 40 and 45 in the Reinstates File (this indicates those items that were
reinstated by the new procedures developed by OQP and the Office of Systems).

The calculation is performed by dividing the count of items noted with the codes of 40 or
45 in the Reinstates File by the count of items in the ESF for the tax year under review
plus the number of OVR codes of 40 or 45 in the Reinstates file. The result of this
calculation is multiplied by 100 to show the result as a percentage.

Performance Indicator Calculation

                                     Total number of OVR codes 40 & 45
Performance                      =   (Total number of items in ESF + Total   X 100
                                     number of OVR codes 40 & 45)




18
     SSA PAR, FY 2007, p. 100.

Performance Indicator Audit: Earnings Information (A-15-07-17126)                        6
Findings

Six members of OQP’s programming staff and three operational personnel had the "All"
access designation (within the Top Secret security software) to the Reinstates File
dataset used to calculate the indicator results. This level of access allows users to
create, delete and modify any of the data (or datasets) contained in the datasets we
reviewed. Therefore, the data used to calculate the performance indicator could be
inappropriately modified and could impact the results of this performance indicator. This
level of access prevents SSA from ensuring the integrity of these production data. By
allowing programming personnel to have the "All" access designation, SSA is not
conforming to Office of Management and Budget Circular A-130, Management of
Federal Information Resources, Appendix III, Security of Federal Automated Information
Resources, principles of "least privilege" or segregation of duties. 19 Therefore, the data
cannot be considered reliable since the access control issue created the potential for
inappropriate alteration.

Further, we noted that the Reinstates File retains the most recent data and previous
earnings records that were reinstated for the same individual are not included in the
performance indicator calculation of earnings records removed. Specifically, SSA does
not include counts that could not be validated and/or explained by the OQP process.
SSA management could not determine the extent of the understatement. As a result,
the actual results of the performance indicator could not be completely and accurately
calculated.

In addition, SSA management did not maintain an independent copy of the ESF and
Reinstates File used to calculate this indicator. As a result, we were given the OQP
copy of the ESF and Reinstates File extracts for our recalculation testing. Because
archives of the ESF and Reinstates File were not maintained and no copies of the
extracts were maintained independently, we could not verify and validate that the
extracts provided by OQP were accurate and complete.

Lastly, during our review of the narrative information contained in the PAR related to this
performance indicator, we identified an inconsistency between the data definition and
the stated FY 2006 indicator goal. The FY 2006 goal for this indicator was 3 percent;
however, the second sentence of the data definition states, "The five percent reduction
will be achieved by using new matching routines developed by the Office of Quality
Performance (OQP) and Office of Systems." 20 Although the goal of this performance
indicator was not met, this inconsistency could cause confusion for the users of the
PAR.

As of February 25, 2008, SSA's Annual Performance Plan did not include this indicator
as a performance measure.


19
   SSA is implementing the Standardized Security Profile Project to address the principle of “least
privileged access” for users with access to mainframe datasets.
20
     SSA PAR, FY 2006, p. 100.

Performance Indicator Audit: Earnings Information (A-15-07-17126)                                     7
CONCLUSION AND RECOMMENDATIONS
The indicator, “Remove 3 percent of the earnings items that remain in the Earnings
Suspense File (ESF) for a new tax year and post the earnings to the correct earnings
records,” is no longer included in SSA's Annual Performance Plan. However, if this or a
similar indicator is reported in the future, as a best practice SSA should:

•   Ensure the performance indicator titles, definitions, and goals presented in the PAR
    are accurate and consistent.

•   Disclose in the PAR the limitations within the ESF and Reinstates File that may have
    resulted in the potential understatement of the results for these performance
    indicators.

•   Maintain an independent audit trail including the computer files used to perform the
    calculations.

In addition, based on our testing, we recommend SSA:

1. Restrict access to the OQP copies of the ESF and Reinstates File based on the
   concept of least privilege access.

AGENCY COMMENTS
The Agency agreed with our recommendation. However, based on technical comments
provided separately by SSA, we made a slight change to the wording of the
recommendation for clarity purposes. The Agency’s comments are included in
Appendix D.




Performance Indicator Audit: Earnings Information (A-15-07-17126)                          8
                                            Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Process Flowcharts

APPENDIX D – Agency Comments




Performance Indicator Audit: Earnings Information (A-15-07-17126)
                                                                    Appendix A
Acronyms
Act                   Social Security Act
DACUS                 Death Alert Control and Update System
DI                    Disability Insurance
EAD                   Earnings after Death
ESF                   Earnings Suspense File
FY                    Fiscal Year
GAO                   Government Accountability Office
GPRA                  Government Performance and Results Act
IRS                   Internal Revenue Service
ISSH                  Information System Security Handbook
IST                   Intelligence Search Technology
JFMIP                 Joint Financial Management Improvement Program
MBR                   Master Beneficiary Record
MEF                   Master Earnings File
OASDI                 Old-Age, Survivors and Disability Insurance
OASI                  Old-Age and Survivors Insurance
OEEAAS                Office of Earnings, Enumeration, and Administrative Systems
OMB                   Office of Management and Budget
OQP                   Office of Quality Performance
OVR                   Origin of Validation Reinstatement
PAR                   Performance and Accountability Report
PEBES                 Personal Earnings and Benefit Estimate Statement
PwC                   PricewaterhouseCoopers
SIPEBES               SSA-Initiated Personal Earnings and Benefit Estimate Statement
SSA                   Social Security Administration
SSI                   Supplemental Security Income
SSN                   Social Security Number
SSR                   Supplemental Security Record
Statement             Social Security Statement
U.S.C.                United States Code
W-2                   Wage and Tax Statements
YCER                  Young Children's Earnings




Performance Indicator Audit: Earnings Information (A-15-07-17126)
                                                                        Appendix B
Scope and Methodology
We updated our understanding of the Social Security Administration’s (SSA)
Government Performance and Results Act (GPRA) processes. This was completed
through research and inquiry of SSA management. We also requested SSA provide
various documents regarding the specific programs being measured as well as the
specific measurement used to assess the effectiveness and efficiency of the related
program.

Through inquiry, observation, and other substantive testing, including testing of source
documentation, we performed the following.

•   Reviewed prior SSA, Government Accountability Office, Office of the Inspector
    General and other reports related to SSA’s GPRA performance and related
    information systems.
•   Reviewed applicable laws, regulations and SSA policy.
•   Met with the appropriate SSA personnel to confirm our understanding of the
    performance indicators.
•   Flowcharted the processes (see Appendix C).
•   Tested key controls related to manual or basic computerized processes (for
    example, spreadsheets, databases, etc.).
•   Conducted and evaluated tests of the manual controls within and surrounding each
    of the critical applications to determine whether the tested controls were adequate to
    provide and maintain reliable data to be used when measuring the specific
    indicators.
•   Identified attributes, rules, and assumptions for each defined data element or source
    document.
•   Recalculated the metrics or algorithms of the performance indicators to ensure
    mathematical accuracy.
•   Assessed the completeness and accuracy of the data to determine the data's
    reliability as they pertain to the objectives of the audit and intended use of the data.

As part of this audit, we documented our understanding, as conveyed to us by Agency
personnel, of the alignment of the Agency’s mission, goals, objectives, processes, and
related performance indicators. We analyzed how these items interacted with related
processes within SSA and the existing measurement systems. Our understanding of
the Agency’s mission, goals, objectives, and processes were used to determine if the
performance indicators appear to be valid and appropriate given our understanding of
SSA’s mission, goals, objectives and processes.

We followed all performance audit standards in accordance with generally accepted
government auditing standards.




Performance Indicator Audit: Earnings Information (A-15-07-17126)                       B-1
In addition to these steps, we specifically performed the following to test the indicators
included in this report.

Specific to the performance indicator, "Issue annual SSA-initiated Social Security
Statements to eligible individuals age 25 and older"

•    Inspected relevant policies and procedures as necessary.
•    Reviewed the extraction codes including the elimination process for the NUMIDENT,
     Personal Earnings and Benefit Estimate Statement, Master Beneficiary Record
     (MBR) and Territory Address Files.
•    Reviewed access to extraction files to ensure personnel did not have direct dataset
     access.
•    Verified automated codes by conducting data analysis over the MBR, Supplemental
     Security Record (SSR) and Death Alert Control and Update System (DACUS) data
     to ensure edits were meeting the required criteria and were working properly.
•    Selected a sample of 45 Social Security numbers (SSN) from the NUMIDENT
     segment and verified statements were sent or had met extraction criteria.
•    Selected a sample of 45 history records transmitted for printing and verified PEBES
     history file was updated.

Specific to the performance indicator, "Remove 3 percent of the earnings items
remaining in the Earning Suspense File (ESF) for a new tax year and post the
earnings to the correct earnings records"

•    Inspected relevant policies and procedures as necessary.
•    Reviewed relevant documentation for the sources of the data included on the ESF
     and the Reinstates File, the matching routines for suspended records and the
     process for reinstating those records to the Master Earnings File (MEF).
•    Reviewed the process for controlling access to the ESF and Reinstates File and
     tested the appropriateness of the access privileges granted to the Reinstates File
     and ESF for a selection of SSA personnel.
•    Sampled 45 lead 1 SSNs to verify corresponding MEF, NUMIDENT, and Intelligence
     Search Technology score data were correctly assigned.
•    Reviewed counts for matching routines to verify SSNs were assigned appropriate
     codes during phase matching routines.
•    Recalculated the results of the performance indicator by obtaining a copy of the
     Reinstates File and ESF extracts and determining the number of records that were
     posted to the Reinstates File from Calendar Year 2002 based on Office of Quality
     Performance matching processes and ESF records from Calendar Year 2002.




1
    A lead SSN is the SSN being tested for a match and thereby removed from the ESF.


Performance Indicator Audit: Earnings Information (A-15-07-17126)                        B-2
                                                                                                            Appendix C
Process Flowcharts

Issue Annual Social Security Administration-Initiated
Social Security Statements to Eligible Individuals Age 25
and Older - Flowchart
   Weekly Operation                            Daily Operation
                                               Combine records with
    Select by age range                        Multiple Social Security
     (>= 25 years), and        NUMIDENT        Numbers (SSNs) and,
      no death record                           re-check for claim,
                                                       benefits

                                                                                          Master
                                                                                       Earnings File
                                                                                          (MEF)

    Eliminate if received
   Personal Earnings and                       Obtain Earnings Record
     Benefits Estimate        PEBES History    and Determine insured
    Statement (PEBES)                                  status
        within 1 year

                                                                                      Resolve Earnings
                                                                                      Record Problem



                              Master Benefit      Calculate Benefit
                              Record (MBR)           Estimates

    Eliminate if receiving
    benefits or if claim is
          pending
                                                Save History Record,
                                                Transmit for Printing,                                            Social Security
                                                                                     Printing and Mailing        Statements Sent
                              Claims Control     Send Exceptions to
                                                                                          Contractor
                                                   Target Notice
                                                    Architecture




                                                                                       Executive
                                                                                     Management
                                Territory
                                                                                      Information
                               Addresses
                                                                                        System
     Obtain Taxpayer
  Addresses from Internal
     Revenue Service
   (IRS) / Territory File

                                   IRS                                                                              Reporting of
                                                                           Total number of Statements issued        Performance
                                                                          Total number of Statements estimated       Measure in
                                                                                                                  Performance and
                                                                                                                   Accountability
                                                                                                                   Report (PAR)




Performance Indicator Audit: Earnings Information (A-15-07-17126)                                                                   C-1
Issue Annual Social Security Administration-Initiated
Social Security Statements to Eligible Individuals Age 25
and Older - Narrative
   •   The following occurs during the weekly operation.
          o Select names by age range (>= 25 years) and no death record from the
              NUMIDENT.
          o Eliminate if received Personal Earnings and Benefit Estimate Statement
              (PEBES) within 1 year - input is received from the PEBES file to complete.
          o Eliminate if receiving benefits or if claim is pending within one year.
              Determined through input from the Master Beneficiary Record (MBR) and
              Claims Control file.
          o Obtain taxpayer addresses from Internal Revenue Service or Territory
              Files.

   •   The following occurs during the daily operation.
          o Combine records with multiple Social Security numbers (SSN) and re-
              check for claim benefits.
          o Obtain earnings record and determine insured status from the Master
              Earnings File (MEF).
          o Resolve earnings record problems.
          o Calculate benefit estimates.
          o Save history record, transmit for printing; send exceptions to Target Notice
              Architecture.
          o Send information to the printing and mailing contractor.
          o Social Security Statements are sent.
          o Executive Management Information System updated.
          o Reporting of performance measure results in the Performance and
              Accountability Report (PAR).




Performance Indicator Audit: Earnings Information (A-15-07-17126)                    C-2
Remove 3 Percent of the Earnings Items That Remain in the
Earnings Suspense File (ESF) for a New Tax Year and Post
the Earnings to the Correct Earnings Records – Flowchart 1
        Office of Quality
          Performance
        (OQP) receives
       copy of suspense
       file from Office of
             Systems




    OQP creates snapshot
    copy of suspense file.

     Note: There is a 4 year
    lag between the tax year
       and year calculated




        OQP separates
        suspense items
          into buckets




     Assign unique control
     numbers and Obtain                     OQP creates                       OQP creates                        OQP creates
       Numident/Master                    snapshot copy of                  snapshot copy of                    Alphadent File
      Earnings File (MEF)                  Reinstate Files                   Reinstate Files                    from Numident
        characteristics


                                                                       Perform matching routine
       Perform matching                  Perform matching                     (phase 7)                        Perform matching
       routine (phase 5)                 routine (phase 6)                                                     routine (phase 8)
                                                                        Match Suspense Name to
     Lead Social Security                 Match Suspense                  Reported Name and                    Match Suspense
       Number (SSN) =                     SSN to Reported                 Suspense Employer                   name to Alphadent
       Suspense SSN                            SSN                     Identification Number (EIN)                 names
                                                                             to Reported EIN




       OQP loads focus
         database with
        lead SSN data
        characteristics




            Focus
           database




           Decision tree                                                                             Office of Systems assigns
                                         Load Postit Focus                 OQP creates
       program executed                                                                                  Origin of Validation
                                           database with                  CRKver file and
       to identify the lead                                                                          Reinstatement (OVR) code
                                          Suspense and                   sends to Office of
         SSNs that meet                                                                              40 & 45 to items posted by
                                          Lead SSN data                      Systems
          testing criteria                                                                                      OQP


                                                                                                                          Reporting of ‘Remove 3 percent of
                                                                                                                          the earnings items that remain in
                                                                                                         Result
                                                                                                                          the Earnings Suspense File (ESF)
                                                  Total number of OVR code 40 & 45           _        multiplied by
                                                                                                                          for a new tax year and post the
                              Total number of items in ESF + Total number of OVR code 40 & 45         100 to reflect
                                                                                                                          earnings to the correct earnings
                                                                                                      a percentage
                                                                                                                          records’ in the Performance and
                                                                                                                          Accountability report.




1
  This process describes the calculation of the performance measure. It does not include how earnings
items are posted to the ESF.


Performance Indicator Audit: Earnings Information (A-15-07-17126)                                                                                             C-3
Remove 3 Percent of the Earnings Items That Remain in
the Earnings Suspense File (ESF) for a New Tax Year and
Post the Earnings to the Correct Earnings Records –
Narrative

   •   Office of Quality Performance (OQP) receives copy of suspense file from Office
       of Systems.
   •   OQP creates snapshot copy of suspense file. Note: There is a four year lag
       between the tax year and year calculated.
   •   OQP separates suspense items into categories.
   •   OQP assigns unique control numbers and obtains NUMIDENT and MEF
       characteristics.
   •   OQP creates snapshot copy of Reinstate Files.
   •   OQP creates ALPHADENT file from the NUMIDENT.
   •   Perform matching routine (Phase 5). Lead Social Security Number (SSN) =
       Suspense SSN.
   •   Perform matching routine (Phase 6). Match Suspense SSN to Reported SSN.
   •   Perform matching routine (Phase 7). Match Suspense Name to Reported Name
       and Suspense Employer Identification Number (EIN) to Reported EIN.
   •   Perform matching routine (Phase 8). Match Suspense name to ALPHADENT
       names.
   •   OQP loads focus database with lead SSN data characteristics.
   •   Decision tree program executed to identify the lead SSNs that meet testing
       criteria.
   •   Load Postit Focus database with Suspense and Lead SSN data.
   •   OQP creates CRKver file and sends to Office of Systems.
   •   Office of Systems assigns Origin of Validation Reinstatement (OVR) codes 40
       and 45 to items posted by OQP.
   •   OQP uses the count of items noted with the code of 40 or 45 in the Reinstates
       file and divides this number by the count of items in the Earnings Suspense File
       (ESF) for the tax year under review, plus the number of OVR codes of 40 or 45 in
       the Reinstates file.
   •   The result of this calculation is multiplied by 100 to show the result as a
       percentage.
   •   Reporting of ‘Remove 3 percent of the earnings items that remain in the ESF for
       a new tax year and post the earnings to the correct earnings records’ in the
       Performance and Accountability Report.




Performance Indicator Audit: Earnings Information (A-15-07-17126)                   C-4
                                                                    Appendix D
Agency Comments




Performance Indicator Audit: Earnings Information (A-15-07-17126)
                                         SOCIAL SECURITY

MEMORANDUM


Date:      April 24, 2008                                                        Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      David V. Foster /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "Performance Indicator Audit: Earnings
           Information” (A-15-07-17126)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments regarding the draft report
           and response to the recommendation are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.


           Attachment




           Performance Indicator Audit: Earnings Information (A-15-07-17126)                            D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S DRAFT REPORT,
“PERFORMANCE INDICATOR AUDIT: EARNINGS INFORMATION”
(A-15-07-17126)

Thank you for the opportunity to review and provide comments on this draft report. In the
report, you acknowledge that the performance indicator, “Remove 3 percent of the earnings
items that remain in the Earnings Suspense File (ESF) for a new tax year and post the earnings to
the correct earnings records,” is no longer included in our Annual Performance Plan. However,
during your review you identified three “best practices” we should consider, such as: 1) ensure
the performance indicator titles, definitions, and goals presented in the Performance and
Accountability Report (PAR) are accurate and consistent; 2) disclose in the PAR the limitations
within the ESF and Reinstates File that may have resulted in the potential understatement of the
results for these performance indicators; and 3) maintain an independent audit trail including the
computer files used to perform the calculations. We agree with these “best practices” and will
incorporate them if this, or a similar performance indicator, is reported in the future.

Recommendation

Restrict access to the ESF and Reinstates File based on the concept of least privilege access.

Comment

We agree. We are currently working on evaluating access utilizing the Standardized Security
Profile Project (SSPP). As part of our execution of SSPP, we will review users’ access to the
files identified in this review and will reduce those users to “least privilege” access. We expect
to complete this task no later than September 2010.




Performance Indicator Audit: Earnings Information (A-15-07-17126)                                D-2
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Chief Counsel to the Inspector General (OCCIG), Office of External Relations (OER), and
Office of Technology and Resource Management (OTRM). To ensure compliance with policies and procedures,
internal controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and
Quality Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                        Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
